WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court
urt Case

No

VICTOR WILLIAMS

19-523
v. BAPTIST HEALTH, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

John E. Hearnsberger, II, M.D.
Joe Beck, M.D.
I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar f this Court. Should a response be requested, the response
will be filed by a Bar member
Signature

Nov mb r 2 2019
Jason J. Campbell
(Type or print) Name
Date:

Mr.

Ms.

Mrs.

Miss

Anderson, Murphy & Hopkins, L.L.P.
400 W Capitol Ave., Ste. 2400
Address
72201
Little Rock, AR
Zip
City & State
campbell@amhfirm.com
501-210-3608
Phone
Email
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Andre K. Valley, Eric E. Wyatt and George W. McGriff

